                       Report on Noncompliance With
                       Cost Accounting Standard 418

                                February 2004

                     Reference Number: 2004-1C-048




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                         February 10, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Report on Noncompliance With Cost Accounting Standard 418
                             (Audit #20041C0217)


       The Defense Contract Audit Agency (DCAA) performed an audit regarding the
       contractor’s compliance with the Cost Accounting Standards (CAS) and the Federal
       Acquisition Regulation (FAR). The purpose of the examination was to determine if the
       contractor complied with the requirements of CAS 418 (Allocation of Direct and Indirect
       Costs) and any applicable FAR Part 31 requirements. By performing Federal
       Government contracts covered by Government regulations, the contractor asserts that
       its cost accounting practices comply with the requirements of the CAS.
       The DCAA opined that the contractor complied in all material aspects with the
       requirements of CAS 418 for Fiscal Year (FY) 2004. However, the DCAA noted one
       area in which the contractor was in noncompliance with CAS 418 for FY 2003 and prior
       years. The contractor allocated facility costs using an allocation base of labor hours
       and subcontract hours. According to the DCAA, the amount of space and the
       associated facility cost has a limited causal/beneficial relationship to the number of
       hours worked.
       The DCAA recommends that the contractor use a facility allocation base of square
       footage. The square footage provides a closer causal/beneficial relationship to the
       space occupied and associated cost. The contractor concurred and demonstrated that
       it corrected the noncompliance for FY 2004 and forward. The contractor verbally
       agreed to work with the DCAA during the FY 2003 and prior incurred cost audits to
       identify the cost impact of the noncompliance.
                                           2




The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
